OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/IRAQ’S
NONEXPENDABLE
PROPERTY
AUDIT REPORT NO. E-267-06-002-P
February 16, 2006




BAGHDAD, IRAQ
Office of Inspector General


February 16, 2006

MEMORANDUM

TO:                  Acting USAID/Iraq Mission Director, John P. Groarke

FROM:                Regional Inspector General, Baghdad, Nancy J. Lawton /s/

SUBJECT:             Audit of USAID/Iraq’s Nonexpendable Property (Report No. E-267-06-002-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report and have included them in their entirety as
Appendix II.

The report contains seven recommendations for corrective action. In your written comments, you
concurred with the recommendations and described actions the Mission plans to take to address
the auditors’ concerns. Based on your comments, we consider that management decisions have
been reached on these recommendations. Please coordinate final action with USAID’s Audit,
Performance and Compliance Division.

I want to express my sincere appreciation for the cooperation and courtesies extended to my
staff during this audit.




U.S. Agency for International Development
USAID/IRAQ/RIG
APO, AE 09316
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 4

     $23.5 Million Nonexpendable Property
     Database Was Inaccurate and
     Unsupported................................................................................................................ 5

     Vehicles Valued at $2.3 Million Were
     Not Properly Safeguarded........................................................................................... 8

     Ownership Questions Existed for
     Shared Nonexpendable Property .............................................................................. 10

Evaluation of Management Comments ....................................................................... 12

Appendix I – Scope and Methodology ........................................................................ 13

Appendix II – Management Comments ....................................................................... 15
SUMMARY OF RESULTS
The Regional Inspector General in Baghdad, Iraq conducted this audit to determine if
USAID/Iraq managed its nonexpendable property in accordance with USAID guidance.
(See page 3.)

USAID/Iraq property valued at $23.5 million in its nonexpendable property database was
not managed in accordance with USAID guidance. (See page 4.) Of this amount, we
could not verify that a projected $21.3 million was correctly valued in the database
because amounts were not supported by documentation. Additionally, we could not
verify the existence of a projected $2.9 million in nonexpendable property included in the
database. (See pages 5 through 8.) Furthermore, Mission vehicles valued at $2.3
million were not properly safeguarded, and questions of ownership existed regarding
nonexpendable property shared with another U.S. government agency. (See pages 8
through 11.)

This report contains recommendations to improve USAID/Iraq’s management of its
nonexpendable property. (See pages 8, 9, and 11.) Mission management concurred
with the recommendations, and management decisions have been reached based on
information provided by the Mission. (See page 12.)

Management comments are included in their entirety in Appendix II.




                                                                                        1
BACKGROUND
USAID/Iraq was established on July 27, 2003 to manage USAID’s reconstruction and
humanitarian relief assistance, which was delivered through 45 grants and contracts to
American nonprofit organizations and corporations. As of September 30, 2005, the Iraq
Mission received approximately $5 billion. In order to operate in the country, USAID/Iraq
constructed extensive facilities consisting of an office building, 1 housing for personnel,
and a warehouse. In addition, USAID supported regional offices in Hillah, Basrah, and
Erbil.

USAID/Iraq operated under an unusual environment with a large turnover of staff,
including three Executive Officers in the first year of operation. In addition to the large
staff turnover, the Mission also experienced a staff shortage. Because of this shortage,
USAID/Iraq contracted with the International Resources Group for one year, effective in
May 2003, for procurement and management of nonexpendable property, 2 with
oversight provided by the Executive Office of the Mission.

After the International Resources Group contract ended in June 2004, USAID/Iraq’s
Executive Office took over direct responsibility for the procurement, maintenance,
management and accountability of expendable and nonexpendable property. Property
management consisted of purchasing, receiving, inventorying, warehousing, issuing, and
disposing of expendable and nonexpendable office and residential property in
accordance with USAID and Federal regulations and policies.

This audit covered nonexpendable property included in the Mission’s inventory from its
inception in fiscal year 2003 through September 30, 2005. The Mission’s database showed
the acquisition value of nonexpendable property at $23.5 million as of September 30, 2005.
The Mission’s accounting system showed expenditures of $15.2 million, 3 of which $5.8
million was from Iraq Relief and Reconstruction Funds, with the remaining funding provided
through USAID’s operating expense account.




1
  The Mission worked in two locations prior to the completion of the office building.
2
   Nonexpendable property is defined as any item such as furniture, office machines, information
  technology equipment, and communications equipment that (1) is complete in itself; (2) does not
  lose its identity or become a component part of another item when used; and (3) is of a durable
  nature with an anticipated useful life of over two years.
3
   Due to the different reporting formats used by the accounting and accountability systems and
   the methodology used to create them, we could not reconcile the difference between the two
   reports. This discrepancy can be partially explained by examining how the Mission acquired its
   nonexpendable property. According to Mission personnel, many assets were transferred to
   Iraq from other offices and were therefore not purchased by USAID/Iraq.


                                                                                               2
AUDIT OBJECTIVE
As a part of its fiscal year 2005 audit plan and because of the large dollar value of
nonexpendable property involved, the Regional Inspector General in Baghdad
conducted this audit to answer the following objective:

   •   Did USAID/Iraq manage its nonexpendable property in accordance with Agency
       guidance?

Appendix I contains a complete discussion of the scope and methodology.




                                                                                   3
AUDIT FINDINGS
USAID/Iraq did not manage its nonexpendable property in accordance with Agency
guidance. The nonexpendable property database was inaccurate as the recorded
purchase value of a projected $21.3 million out of $23.5 million of nonexpendable
property could not be verified, and the Mission was unable to account for a projected
$2.9 million of nonexpendable property. In addition, Mission vehicles valued at $2.3
million were not properly safeguarded, and questions of ownership existed regarding
nonexpendable property shared with another U.S. government agency.

The Mission did take steps to manage its nonexpendable property, including
construction of a warehouse to store the nonexpendable property. In addition,
USAID/Iraq had performed an assessment of its vehicle fleet and was determining how
to reduce excess vehicles. The Mission was in the process of building covered parking
for its vehicles; given the harsh environment, covering the cars will help keep them in
better condition.


                                           Photographs of vehicles stored uncovered on the
                                           USAID/Iraq compound in Baghdad. (Baghdad,
                                           Iraq; September 2005)




Mission management was exploring options to bring in USAID personnel on a short-term
basis to work with the Mission staff on the management of its nonexpendable property.
The Mission had identified a USAID employee from another mission for a 3-month
assignment in Iraq and was in the process of finalizing the details. An experienced
person providing guidance on following regulations and policies would provide effective
on-the-job training to current USAID/Iraq staff.

However, even though the Mission had taken the actions detailed above, it was not
properly managing its nonexpendable property.




                                                                                        4
$23.5 Million Nonexpendable
Property Database Was Inaccurate
and Unsupported

     Summary: The USAID/Iraq database used to manage its nonexpendable property
     had significant errors, contrary to the Government Accountability Office’s Standards
     for Internal Control in the Federal Government, the Foreign Affairs Manual, and
     USAID guidance. Results of statistical sampling projected that, of the $23.5 million
     in the database, the Mission could not verify the accuracy of the recorded purchase
     value for $21.3 million (91 percent). In addition, statistical tests projected that of
     the $23.5 million, $2.9 million of nonexpendable property (12 percent) could not be
     located.     Further non-statistical tests showed particular examples where
     nonexpendable property was either 1) included in the database but not located, 2)
     located, but not included in the database, and/or 3) included in the database but
     with inaccurate descriptions or locations. Although contributing factors existed,
     inaccuracies occurred because the Mission lacked written policies and procedures
     regarding the management of its nonexpendable property. As a result, the Mission
     did not have proper accountability over its nonexpendable property, which could
     lead to misreporting or the increased likelihood of theft occurring.

USAID/Iraq implemented a database system to manage its nonexpendable property.
Pursuant to 14 Foreign Affairs Manual (FAM) 414.2-1, USAID missions are required to
use BarScan, USAID's approved property management system. The Government
Accountability Office’s Standards for Internal Control in the Federal Government states
that transactions need to be completely and accurately recorded in order to maintain
their relevance. It also states that all transactions need to be clearly documented and
the documentation should be available for examination. USAID’s Automated Directives
System (ADS) 502.5.1(b) states that official records must be preserved. 4

Statistical Test Results – In order to verify the accuracy of the information included in
the database, including the purchase price and the location of the property, 141 items
(valued at $524,000) were selected. Tests revealed that purchases of 91 items (valued
at $474,000) were not documented; based on this sample, it is projected that $21.3
million in purchases of nonexpendable property items are not supported. For example,
the Mission was not able to provide documentation including procurement requests,
purchase orders/contracts, memorandums of negotiation, payment vouchers, and
receiving reports for purchases of selected computer equipment, residential furniture,
and electrical equipment. Therefore, the Mission cannot be assured that property
costing $21.3 million was purchased in accordance with USAID policies nor can the
Mission verify the actual cost of the property.

Further, 75 items (with an acquisition value of $65,000) of the 141 randomly selected
items could not be located. Based on these sample test results, a projected value of
approximately $2.9 million of nonexpendable property cannot be found and, therefore,
may be missing.


4
    While ADS and FAM provide general guidance to Missions, they do not provide procedure steps to be
    followed for actual implementation.


                                                                                                   5
                                               Photograph of auditor checking barcodes in
                                               USAID/Iraq’s warehouse. (Baghdad, Iraq;
                                               November 2005)



                                                 Non-Statistical Test Results – The
                                                 audit team conducted three non-
                                                 statistical tests – to determine if the
                                                 database was complete; to determine if
                                                 vehicles were accurately included in the
                                                 database; and to determine if disposed-
                                                 of nonexpendable property items were
                                                 removed from the database following
                                                 applicable policies and procedures.


Completeness Test Results: Nonexpendable property items were judgmentally selected
from USAID compounds in Baghdad, Erbil, and Hillah to determine if the items were
properly included in the database. As shown in Table 1, 42 out of 103 selected items
were not included in the database. Further, 18 items were included in the database, but
were not accurately recorded, that is, the database did not have the correct location or
description for an item.

   Table 1: Completeness Testing Results
                                                 Items Not          Total Exceptions
                Total Items     Items Not in     Recorded
  Location       Selected         Database       Accurately        No.         Percent
       (a)          (b)              (c)             (d)         (c + d)      (c +d) / b
 Baghdad            57               28               6            34            60%
 Erbil              25               10               9            19            76%
 Hillah             21                4               3             7            33%
    TOTAL          103               42              18            60            58%

For the USAID compound in Basrah, with the exception of vehicles, none of USAID’s
nonexpendable property was included in the database. Since an inventory was not
performed, the Mission was unable to provide the audit team an estimated value of the
Basrah items.

Vehicle Test Results: Since the relative value of vehicles was so high ($17.1 million out
of the $23.5 million in the database), additional non-statistical tests were performed. Of
the 31 vehicles judgmentally selected for testing (with a purchase value of $3.5 million),
seven vehicles had locations incorrectly recorded in the database; as a result, the audit
team was not able to physically inspect them to verify their existence. For example, one
of these seven vehicles was sent to Kuwait for repair, but the Mission could not
determine the current location. An eighth vehicle related to a duplicate entry in the
database for a Toyota Land Cruiser. The total value of these eight cars was $1.2 million.
Further, Mission officials informed the audit team that they could not locate an additional
four vehicles, valued at $585,000 in the database. The Mission stated that one of these
vehicles was sent to Kuwait for repairs but was also missing, and two were hijacked



                                                                                            6
during transit for repair. One was transferred to a third party, but the Mission still had the
vehicle in its records. These situations occurred prior to the arrival of current Mission
management, and no supporting documentation was in the files.

Disposed-of Items Test Results: Lastly, the audit team performed a non-statistical test
to determine if disposed-of items were properly disposed of and removed from the
nonexpendable property database.        USAID/Iraq maintained a spreadsheet that
contained 439 disposed-of items with an acquisition value of $228,000. However, the
spreadsheet did not contain enough information to allow the audit team to verify that the
Mission followed the FAM or ADS. For example, the list did not allow the audit team to:

      •    Verify that assets were disposed of in one of the six authorized methods 5 (14
           FAM 417.3),

      •    Determine if there were any proceeds from the disposal that should have been
           returned to USAID's Budget and Clearing Account (14 FAM 417.3-3), and

      •    Determine if the assets were removed from the financial report sent to
           Washington, largely because the report did not include the disposal date (14
           FAM 419.3-2).

Overall, the Mission was unable to provide
any records supporting that appropriate
procedures were followed for the 439
disposed-of items. The Mission relied upon
one employee to manage these documents,
and when she resigned, the Mission could not
locate the documents used to support these
disposals.     As a result of the missing
documentation related to disposed-of items
and previously discussed inaccuracies with
the database, the audit team was unable to
verify that disposed-of items were deleted
from the database.

Current Mission management stated, and we
concurred,    that   the    inaccurate  and
unsupported information in the database was
caused by several factors:                                    Photograph of auditor looking through the
                                                              disposal pile to verify that barcodes were
                                                              properly removed. (Baghdad, Iraq; October
           •   Lack of training,                              2005)

           •   Lack of Mission-specific written policies and procedures, and

           •   USAID/Iraq’s unusual operating environment. (Since inception USAID/Iraq
               has experienced shortages of direct-hire staff and a large, continuing turnover


5
    The six acceptable methods of property disposal are: (1) redistribution to establishments within the parent
    agency, (2) transfer to another agency or commission/mess/recreational facility, (3) sale or exchange, (4)
    grant-in-aid or project contribution, (5) donation, and (6) abandonment or destruction.


                                                                                                             7
           of staff, resulting in large workloads, inconsistency, and misfiling of the
           appropriate records.)

The Mission was not able to identify a reason for the lack of documentation relating to
the missing and stolen vehicles.

As a result of the above, USAID/Iraq cannot use its current database to effectively
manage nonexpendable property, which increases the potential for fraud, waste, and
abuse.

In order to correct the database and to prevent inaccuracies from occurring in the future,
we recommend the following:

   Recommendation No. 1: We recommend that USAID/Iraq perform a full
   inventory of all USAID/Iraq locations, tagging and recording each nonexpendable
   property item, to create a complete database.

   Recommendation No. 2: We recommend that USAID/Iraq perform a detailed
   reconciliation between the database as of October 31, 2005 and the new
   database to be created in order to account for the identified exceptions.

   Recommendation No. 3: We recommend that USAID/Iraq develop Mission-
   specific written policies and procedures for its management of nonexpendable
   property.

   Recommendation No. 4: We recommend that USAID/Iraq provide training to
   employees responsible for the management of its nonexpendable property.

   Recommendation No. 5: We recommend that USAID/Iraq conduct a review to
   determine the status of the missing vehicles and refer the matter for investigation
   if appropriate.




Vehicles Valued at $2.3 Million
Were Not Properly Safeguarded

  Summary: USAID/Iraq did not properly safeguard vehicles valued at $2.3 million. Of
  the 35 vehicles examined by the audit team, 16 were unlocked, and 2 of the
  unlocked cars had their keys hanging from the driver-side door. Chapter 14, Section
  413.7 of the FAM requires that the Mission create secure and controlled areas for
  expensive equipment subject to theft, and the Government Accountability Office’s
  Standards for Internal Control in the Federal Government states that physical
  controls must be established to safeguard vulnerable assets. Mission personnel
  failed to lock these vehicles after they had performed routine service work on them.
  Until USAID/Iraq improves the physical security over its vehicles, there is an
  increased risk that its vehicles could be stolen or used for unauthorized purposes.




                                                                                         8
USAID/Iraq managed a motor pool of 105 vehicles in Baghdad, Iraq. The audit team
tested the physical security of 35 vehicles and found 16 that were unlocked (with an
approximate value of $2.3 million 6 ). The
keys to two vehicles were in the driver’s
doors; one of those two cars was in
working condition and was started using
the key found in the driver’s door. Given
the location of that vehicle, it would have
been possible to use it for an
unauthorized purpose or to steal it.

The Government Accountability Office’s
Standards for Internal Control in the
Federal Government states that physical
controls must be established to
safeguard vulnerable assets. Similarly,
pursuant to 14 FAM 411.4, property
accountability     includes      creating
appropriate security controls. Moreover,
14 FAM 413.7 specifically states that the        Photograph of unattended USAID/Iraq vehicle
mission must create secure and                   with its keys in the driver-side door.
controlled     areas    for    expensive         (Baghdad, Iraq; November 2005)
equipment subject to theft.

Motor pool personnel stated that vehicles are often left unlocked so personnel can easily
enter the vehicle and start the engine to keep the battery from failing. Although the
Mission may need to access its cars on a regular basis, leaving the cars unlocked and
failing to keep every key for the motor pool fleet in a secure location significantly
increased the risk of theft or use of a vehicle in an unauthorized manner. We are
therefore making the following recommendation:

      Recommendation No. 6: We recommend that USAID/Iraq adopt policies and
      procedures directing Mission personnel to keep all unattended vehicles locked
      and to store unused keys in a secure location.




6
    The average acquisition cost per vehicle located on USAID/Iraq’s Baghdad compound was
    approximately $145,000.


                                                                                               9
Ownership Questions Existed
for Shared Nonexpendable
Property

  Summary: USAID/Iraq employees were unable to readily identify the ownership of
  commingled nonexpendable property. Mission personnel could not readily determine
  who had purchased assets that were commingled with the U.S. Army Corps of
  Engineers because they had not been inventoried by USAID/Iraq and certain assets
  were tagged by both USAID/Iraq and the U.S. Army Corps of Engineers. Chapter 14,
  Section 413.7 of the FAM states that commingled property must be appropriately
  identified to show who owns the property. Until the ownership of all property under
  USAID/Iraq’s control is verified and the assets are properly tagged, USAID/Iraq cannot
  ensure that it maintains control over its nonexpendable property.

USAID/Iraq shared office space with U.S.
Army Corps of Engineers (USACE)
                                                                               Old Style
employees, which resulted in USAID/Iraq
                                                                               Barcode
commingling its assets. However, the
Mission failed to properly track the
ownership of these assets.                                                    New Style
                                                                               Barcode
No Tagging – The audit team identified
13 flat-screen monitors used by USACE
personnel in Baghdad that were not              Photograph of the old style and new style
tagged with barcodes.       USAID/Iraq’s        barcodes used by the Mission to tag its
Warehouse Division personnel believed           nonexpendable property. (Baghdad, Iraq;
                                                November 2005)
that these assets were owned by USACE.
However,      USAID/Iraq’s    Information
Technology Division, the USACE property
accountability officer, and the USACE
deputy commander at USAID/Iraq all
agreed that USAID/Iraq owned these
monitors.

Dual Tagging – Two Panasonic laptops
owned by USACE were marked with Photograph of the old style barcode with the
USAID/Iraq “old style” property barcodes. USACE barcode underneath it.             These
                                             barcodes were found on a Panasonic laptop
These old style barcodes were used by located           inside    USAID/Iraq’s  Baghdad
the Mission before it switched to the compound. USAID/Iraq had placed an old-style
database. The Mission’s Warehouse property barcode on the laptop even though
Division, its Information Technology USAID did not own it.                (Baghdad, Iraq;
                                             November 2005)
Division, and USACE agreed that USAID
did not own the two laptops. According to
Warehouse Division personnel, when the Mission started its property accountability
system, it placed barcodes on every item it found on the compound, regardless of who
owned the asset. When the Mission transitioned to the current database, the Mission
retagged everything using a new style of barcode and excluded items that were not
owned by USAID; it did not, however, remove the old barcodes. The Mission’s failure to
remove the old tags from the laptops increased the risk that there may be disagreements


                                                                                            10
in the future regarding who owns certain items within USAID/Iraq’s Baghdad compound
and its regional offices.

Similarly, USACE had placed its barcodes on two flat-screen monitors at USAID/Iraq’s
Baghdad compound. The monitors also had USAID/Iraq’s old style barcode, but they did
not have the new style barcodes which would indicate that they were tracked by the
Mission in its database. Both the USACE property accountability officer and the USACE
deputy commander at USAID/Iraq said that USAID/Iraq was the actual owner of these
assets; USACE barcodes were added simply to ensure that the USACE did not lose the
assets assigned to it.

Pursuant to 14 FAM 413.7, “in all cases, commingled property must be appropriately
identified to show agency ownership of the property.” However, Mission personnel and
other organizations did not agree on who owned various assets. Further confusion
would likely ensue as personnel rotate out of Iraq at the end of their tours and
institutional memory as to ownership of assets would be lost.

Until the ownership of all property under USAID/Iraq’s control is verified and the assets
are properly tagged, USAID/Iraq cannot ensure that it maintains control over its
nonexpendable property. According to Mission personnel, USAID/Iraq had encountered
similar ownership questions in its regional office in Erbil, but the Mission worked with the
other organizations that had commingled property at the office to inventory all the assets
and resolve the problem. A similarly conducted inventory at other USAID/Iraq offices
would have likewise verified the ownership of all commingled nonexpendable property at
USAID/Iraq’s compounds and resulted in Mission personnel entering the assets owned
by USAID/Iraq into the database. To address this issue, we are making the following
recommendation:

   Recommendation No. 7: We recommend that USAID/Iraq verify the ownership of
   commingled property and remove its property tags from all nonexpendable
   property that it does not own.




                                                                                         11
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/Iraq concurred with the audit recommendations
and described actions it was taking to address the auditors’ concerns.

In response to Recommendation No. 1, Mission management stated that they had
recruited a USAID employee from another mission to perform a full inventory and
establish a database.

In response to Recommendation No. 2, USAID/Iraq stated that they would perform a
reconciliation and have a validated inventory by March 15, 2006.

In response to Recommendation No. 3, the Mission is developing Mission Orders
regarding the management of nonexpendable property.

In response to Recommendation No. 4, training will be provided to local staff involved in
the management of nonexpendable property.

In response to Recommendation No. 5, USAID/Iraq located the missing vehicles.

In response to Recommendation No. 6, the Mission will issue a new Mission Order on
official vehicles.

In response to Recommendation No. 7, identifying commingled property will be the
responsibility of the Property Management Supervisor, and this will be done through
conducting a comprehensive inventory.

Based on the above response by the Mission to address the auditors’ concerns, we
consider the recommendations to have received management decisions. Management’s
comments are included in their entirety in Appendix II.




                                                                                      12
                                                                                  Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General in Baghdad audited USAID/Iraq’s nonexpendable
property in accordance with generally accepted government auditing standards. The
purpose of the audit was to determine if USAID/Iraq managed its nonexpendable
property in accordance with USAID regulations.

The audit reviewed USAID/Iraq’s management of its nonexpendable property, which,
according to the Mission’s records, consisted of 6,362 items with a total acquisition value
of $23.5 million. The audit sample, which we used to conduct detailed tests, included
141 items with a purchase value of $524,000. In addition, the audit team judgmentally
selected 103 items for completeness testing. The audit included reviewing 439
disposals, with a reported net depreciated value of $822,000 incurred by the Mission
from its inception in July 2003 until September 30, 2005.

The audit team interviewed Mission personnel and individuals from the U.S. Army Corps
of Engineers. The audit examined the Mission’s database, procurement records,
disposal records, vehicle listings, and inventory listings maintained by the Mission’s
regional offices.

The audit team conducted a risk assessment and an initial assessment of the Mission’s
policies and procedures. During the course of the audit, we tested the following internal
controls: retention of documentation to support key transactions; adherence to the
approval process for the acquisition of property; and the procedures for warehousing,
safeguarding, and issuing nonexpendable property.

Audit fieldwork was conducted from
September 29 to December 12,
2005, at USAID/Iraq’s offices in
Baghdad, Hillah, and Erbil. The audit
did not visit the Mission’s regional
office in Basrah because Mission
personnel stated that they had not
conducted a proper inventory of the
office’s nonexpendable property,
which made it impossible to conduct
existence or completeness testing in
Basrah.

Prior   audit  findings    affecting     Photograph      of   auditor     and    Regional
nonexpendable property in Iraq were      Representative in Erbil verifying barcodes (Erbil,
reviewed and considered.                 Iraq; October 2005)




                                                                                              13
Methodology
To answer the audit objective, we tested for existence of assets, completeness of the
database, and proper adherence to acquisition and disposal guidance. We interviewed
Mission and U.S. Army Corps of Engineer personnel, analyzed the database, physically
inspected nonexpendable property, and examined supporting documentation.

Statistical Testing – We attempted to determine if acquisition methods were in
compliance with regulations by requesting supporting documentation of the transactions
for all randomly chosen items. Existence of assets was tested through physical
observation of the random sample of items.

The auditors coordinated with the Office of Inspector General statistician to develop and
analyze a statistical sample to determine the accuracy of USAID/Iraq’s database.
Through random sampling, the audit team selected an initial sample of 80 transactions
valued at almost $294,000 for examination, using 90 percent confidence in two-sided
testing with a precision of plus or minus 5 percent. The sample was approximately 1.3
percent of the universe of 6,362 items valued at $23.5 million. Based on the initial
findings of a 59 percent error rate, an additional 61 items with a value of over $230,000
were selected for testing. The statistician projected the results to the population and
determined that the population had an error rate of about 53.2 percent for existence
testing (a projected 3,348 exceptions out of the 6,362 items) and 64.5 percent for testing
of acquisition documentation (a projected 4,042 exceptions out of the 6,362 items).
Also, based on the same tests, the statistician projected that out of the value of the
exceptions: there was an error rate totaling $2.9 million for existence testing and an error
rate totaling $21.3 million for acquisition testing out of the total value of the population,
$23.5 million.

Non-Statistical Testing – Testing for completeness of the database consisted of
judgmentally selecting items from the USAID compounds in Baghdad, Erbil, and Hillah
and tracing them back to the database. With regards to the vehicle testing, the auditors
created a listing from the database of vehicles that had “motor pool” or a car description
listed in the “type” or “description fields.” From the list of 135 items with a purchase
value of $17.1 million, 31 vehicles with a purchase value of $3.5 million were
judgmentally selected for testing. All items on the disposal list were reviewed to
determine if the Mission complied with regulations.

The audit team did not set a materiality threshold for exceptions. We considered an item
to be an existence exception if USAID/Iraq personnel could not readily locate the item
within seven days or if the database did not contain an accurate description of where the
item was located. Any nonexpendable property item that met the definition of
accountable property as defined in the Foreign Affairs Manual that was not included in
the database was treated as a completeness exception.

The audit team used the following guidance to evaluate potential exceptions: the
Government Accountability Office’s Standards for Internal Control in the Federal
Government; Automated Directives System (ADS) Chapter 534, “Personal Property
Management Overseas;” ADS Chapter 536, “Use and Control of Official Vehicles;” ADS
Chapter 629, “Accounting for USAID-Owned Property and Internal Use Software;” and
Chapter 6, Section 400 of the Foreign Affairs Manual.



                                                                                          14
                                                                                                              Appendix II



  MANAGEMENT COMMENTS


  To:                 Nancy Lawton, Regional Inspector General, Baghdad

  From:               Dawn Liberi, USAID/Iraq Mission Director /s/

  Subject:            Audit of USAID/Iraq’s Nonexpendable Property

  Date:               February 8, 2006

  USAID/Iraq thanks the Office of Inspector General for its audit of the Mission’s
  nonexpendable property. The Mission realizes this was a huge undertaking and
  appreciates the effort and time involved to complete the audit. USAID/Iraq agrees with
  the recommendations and understands that the implementation of the audit
  recommendations will help ensure that USAID/Iraq’s nonexpendable property is
  accounted for in accordance with USAID procedures.

  During the last 2 plus years, Mission staff spent a great deal of time identifying a location
  for a new USAID Compound, developing plans for the compound, and constructing new
  housing and offices. The construction of this compound was an outstanding
  accomplishment in this difficult environment. Indeed, this compound is heralded as the
  best USG facility in the International Zone. The completion of this high-profile
  construction project in a timely manner was, however, at the expense of the mission’s
  normal day to day operations, leaving the Mission with management vulnerabilities,
  particularly in property management, warehousing, OE procurement, travel, and local
  procurement. Further, the constant changes in supervisory personnel and a fast-paced
  work environment contributed to the vulnerabilities. Unlike other USAID missions,
  USAID/Iraq relied on institutional contractors like International Resources Group and
  Crown Agents who did not have a clear understanding of USAID procedures. Their lack
  of knowledge and experience and the inexperience off FSN staff hindered the mission’s
  ability to establish adequate controls. The Mission is now addressing these issues by
  putting systems in place, recruiting experienced Third Country Nationals in areas such
  as procurement, travel, property management, General Services, human resources, and
  computer systems and training FSN staff.




U.S. Agency for International Development   Office Tel: 202-216-6276 ext. 1010, 1429, or 1011 (U.S. number)
USAID Executive Office / Human Resources    Mobil: (IRAQNA) 0790191-9806
Baghdad, Iraq
APO AE 09316                                www.usaid.gov UTH




                                                                                                                      15
                                                                              Appendix II



Recommendation No. 1         We recommend that USAID/Iraq perform a full
inventory of all USAID/Iraq locations, tagging and recording each nonexpendable
property item, to create a complete database.

USAID/Iraq has recruited an experienced Third Country National Property Management
Supervisor to work on all non-expendable property issues, including performing a full
inventory and tagging and recording each nonexpendable property item. A data base is
also being established. This process has begun and should be completed by March 15,
2006.

Recommendation No. 2 We recommend that USAID/Iraq perform a detailed
reconciliation between the database as of October 31, 2005 and the new database
to be created in order to account for the identified exceptions.

As part of the Property Management Supervisor’s responsibilities, he will reconcile the
two databases in order to come up with a validated inventory. A validated inventory will
be completed by March 15, 2006.

Recommendation No. 3 We recommend that USAID/Iraq develop Mission- specific
written policies and procedures for its management of nonexpendable property.

The Mission is addressing all management issues by recruiting experienced Third
Country National Personal Service Contractors in areas such as procurement, travel,
property management, general services, human resources, and information technology.
EXO has implemented 12 new policies and procedures through new Mission Orders
(MOs). There are still more MOs that need to be issued, including management of
nonexpendable property. The relevant Mission Orders will be completed by March 15,
2006.

Recommendation No. 4 We recommend that USAID/Iraq provide training to
employees responsible for the management of its nonexpendable property.

Another responsibility of the property management supervisor is to provide training to
local staff to avoid a reduced level of accountability when the property management
supervisor departs post. To fully ensure FSNs receive adequate training and oversight,
the Mission is recruiting a replacement property management supervisor who will focus
on monitoring property standards.

Recommendation No. 5 We recommend that USAID/Iraq conduct a review to
determine the status of the missing vehicles and refer the matter for investigation
if possible.

A thorough review of the vehicle fleet is in progress. The missing vehicles were
located in Kuwait, where they were sent for repairs. The documentation validating
this is being sent to the Mission.

Recommendation No. 6 We recommend that USAID/Iraq adopt policies and
procedures directing Mission personnel to keep all unattended vehicles locked
and to store unused keys in a secure location.



                                                                                      16
                                                                            Appendix II


Mission agrees and this recommendation will be addressed fully by February 15, 2006.
In addition, the Mission will issue a new Mission Order on Official Vehicles.

Recommendation No. 7 We recommend that USAID/Iraq verify the ownership of
commingled property and remove its property from all nonexpendable property
that it does not own.

The Property Management Supervisor’s responsibilities include identifying commingled
property and verify ownership. This exercise includes conducting a comprehensive
inventory to determine the correct ownership of vehicles. Given the Mission’s physical
move to three different locations, official records will take time to be located.

We thank the Regional Inspector General for its professionalism and willingness to work
closely with the Mission.




                                                                                     17
         USAID/IRAQ/RIG
          APO, AE 09316
Tel: (202) 216-6276, extension 1036
        Fax: (202) 216-6276
          www.usaid.gov
